     April 24 2003




Environment


DoD Explosives Safety Program
Oversight
(D-2003-081)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DDESB                 DoD Explosives Safety Board
          Office of the Inspector General of the Department of Defense
Report No. D-2003-081                                                       April 24, 2003
   (Project No. D2002CB-0079)

                   DoD Explosives Safety Program Oversight

                                Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel
responsible for management of munitions and explosives safety should read this report.
The report discusses program weaknesses associated with inadequate planning and
oversight and the need to restructure the DoD oversight board so it will become more
effective in identifying and minimizing risks associated with explosives safety hazards.

Background. Congress established an ammunition storage board in 1928 as a result of
an explosion on July 10, 1926, at the Naval Ammunition Depot, Lake Denmark, New
Jersey. The ammunition storage board, which was a joint board made up of military
officers, was responsible for informing both the Secretary of War and the Secretary of the
Navy about storage conditions for ammunition and explosives. The original joint board
evolved into the DoD Explosives Safety Board, an executive-level organization that is
responsible for establishing the policy and standards of ammunition and explosives safety
and reporting on the effectiveness of its implementation.

Results. The DoD Explosives Safety Board did not adequately oversee the DoD
Explosives Safety Program. The DoD Explosives Safety Board limited the scope of its
responsibility; did not keep fully informed on explosives safety problems within the DoD
Components; and did not regularly advise or report explosives safety issues to the
Secretary of Defense, the Secretaries of the Military Departments, and the DoD
Components. As a result, DoD had not evaluated the overall program performance of
explosives safety. In addition, explosives safety problems, weaknesses, and lessons
learned were not identified for determining high-risk issues and best practices.
Furthermore, DoD cannot ensure the continuous program improvement and risk
mitigation necessary for effective management of explosives safety. Revisions to DoD
Directive 6055.9, “DoD Explosives Safety Board (DDESB) and DoD Component
Explosives Safety Responsibilities,” July 29, 1996, are necessary to accurately reflect the
DoD Explosives Safety Board authority required for executing oversight functions and
responsibilities for explosives safety. Developing a safety management strategy
requiring a comprehensive explosives safety program that outlines and clarifies program
goals and objectives, identifies essential elements for DoD Component implementation,
and includes performance metrics should bring the oversight and improvement needed
for this important program. (See the Finding section of the report for the detailed
recommendations.)

Management Comments. The Deputy Under Secretary of Defense (Installations and
Environment) concurred with the recommendations and plans to revise DoD
Directive 6055.9, develop a safety management strategy, and restructure the DoD
Explosives Safety Board. The revised Directive and safety management strategy are
estimated to be completed in the second quarter of fiscal year 2004. A policy
memorandum addressing the restructuring of the DoD Explosives Safety Board is
currently being staffed. (See the Finding section for the complete discussion of
management actions.)




                                           ii
Table of Contents

Executive Summary                                                          i

Background                                                                 1

Explosives Safety Guidance                                                 2

Objectives                                                                 3

Finding
     Oversight by the DoD Explosives Safety Board                          4

Appendixes
     A. Scope and Methodology                                             17
          Management Control Program Review                               17
     B. Report Distribution                                               19

Management Comments
     Office of the Deputy Under Secretary of Defense (Installations and
           Environment)                                                   21
Background
    The Deputy Director, Strategic and Tactical Systems, Munitions, Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics requested
    this evaluation to determine whether policies, procedures, regulations, and
    organizational structures for management of DoD munitions and explosives safety
    supported the management of efficient and effective munitions and explosives
    safety programs.

    Establishment of the DoD Explosives Safety Board. Congress established an
    ammunition storage board in 1928 as a result of an explosion on July 10, 1926, at
    the Naval Ammunition Depot, Lake Denmark, New Jersey. The explosion
    destroyed the depot, killed 21 people, and seriously injured another 51. The
    monetary loss, in 1926 dollars, was $46 million.

    Congress directed establishment of an ammunition storage board, which was a
    joint board made up of military officers, to inform both the Secretary of War and
    the Secretary of the Navy about storage conditions for ammunition and
    explosives, with emphasis on prevention of loss of life both within and outside
    storage reservations. The original joint board evolved into the DoD Explosives
    Safety Board (DDESB) and was chartered by DoD Directive 6055.9, “DoD
    Explosives Safety Board (DDESB) and DoD Component Explosives Safety
    Responsibilities,” July 29, 1996. The DDESB is an executive-level organization
    responsible for establishing the policy and standards of ammunition and
    explosives safety and reporting on the effectiveness of its implementation.

    Explosives Safety Responsibilities. The DDESB reports to the Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics through
    the Deputy Under Secretary of Defense (Installations and Environment). The
    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics has principal staff responsibility for DDESB activities and appoints the
    chairman of the DDESB. The Secretaries of the Military Departments are
    responsible for developing and maintaining comprehensive and effective
    explosives safety programs, and the DDESB has program oversight responsibility.
    The Army provides administrative support to the DDESB, including budgeting,
    funding, civilian personnel, and security.

    Explosives Safety Management. Explosives safety management is a “process of
    risk management, consisting of policies, procedures, and engineering controls,
    that reduces the probability and the consequences of an ammunition or explosives
    mishap.” Policies for DoD explosives safety are designed to “limit exposure to
    the minimum number of persons, for the minimum time, to the minimum amount
    of ammunition and explosives.” Risk assessment hazard analysis is a process
    used to make decisions designed to control and minimize hazards and determine
    acceptable risks.




                                        1
           DoD Explosives Stockpile. The Army Materiel Command, the single manager
           for conventional ammunition,1 estimated the DoD explosives stockpile at
           2,855,970 tons and that the combined acquisition cost for DoD conventional
           ammunition and missiles was valued at approximately $33 billion. DDESB
           personnel stated that their database contains 642 sites that represent worldwide
           DoD munitions storage locations.

           DDESB Budget. The DDESB budget for FY 2002 was $1.92 million, which
           included $1.67 million for payroll. Approximately $43,000 was allocated for
           general operations, and travel costs were estimated at $210,000.


Explosives Safety Guidance
           United States Code. Section 172, title 10, United States Code states that a joint
           board shall be established for ensuring that the Secretaries of the Military
           Departments are informed about stored supplies of ammunition and components
           with particular regard to both keeping those supplies properly dispersed and
           stored and preventing hazardous conditions that endanger life and property inside
           or outside of storage reservations from arising. Composition of the board
           includes military officers, civilians, and employees of DoD. The Board members
           confer with and advise the Secretaries of the Military Departments.

           DoD Directive 6055.9. DoD Directive 6055.9, “DoD Explosives Safety Board
           (DDESB) and DoD Component Explosives Safety Responsibilities,” July 29,
           1996, establishes the policy and responsibility of the DDESB. The Directive
           requires that the Military Departments develop and maintain a comprehensive and
           effective explosives safety program. The Directive also requires that each
           Military Department Secretary select a member and an alternate. That member
           has one vote on the DDESB. The Secretariat for each Military Department
           designates a military member to the DDESB Secretariat. Each Secretary ensures
           actions are taken that correct DDESB survey findings, provide the DDESB with
           information and support necessary to discharge its responsibilities and functions,
           and inform the respective Unified Combatant Commands of any ammunition and
           explosives situation that could impact on the command’s warfighting capability.

           DoD Directive 6055.9 requires that the chairman of the DDESB provide impartial
           and objective advice to the Secretary of Defense and the DoD Components as
           well as report explosives safety issues annually to the Secretary of Defense and
           the Secretaries of the Military Departments. Additionally, DDESB
           responsibilities include:

               •   developing standards for ammunition and explosives safety;

               •   establishing procedures for joint hazard classification;



1
    Army Materiel Command responsibility for conventional ammunition does not include missiles,
    torpedoes, mines, underwater devices, or Service-unique items.



                                                    2
       •   maintaining liaison with Federal and state agencies and foreign
           governments, as well as private industry, that have mutual interests or
           responsibilities;

       •   keeping informed on safety matters;

       •   providing assistance on request;

       •   serving as the DoD advocate on environmental security as it relates to
           explosives safety;

       •   reviewing for approval site plans for explosives safety;

       •   developing and conducting research, development, test, and evaluation
           programs to validate and improve standards for ammunition and
           explosives safety;

       •   reviewing existing DoD real property and the cleanup plans for formerly
           used defense sites; and

       •   conducting surveys that evaluate compliance with ammunition and
           explosives safety standards.

    DoD 6055.9-Standard. DoD 6055.9-Standard (STD), “DoD Ammunition and
    Explosives Safety Standards,” July 1999, establishes uniform safety standards
    applicable to ammunition and explosives, associated personnel and property, and
    unrelated personnel and property exposed to potential damaging effects of an
    accident that involve ammunition and explosives during their development,
    manufacturing, testing, transportation, handling, storage, maintenance,
    demilitarization, and disposal. The Standard is mandatory for the Office of the
    Secretary of Defense, the Military Departments, the Joint Chiefs of Staff, the
    Combatant Commands, and the Defense agencies.


Objectives
    Our objective was to determine whether management of DoD munitions and
    explosives safety was adequate and effective. Specifically, this report discusses
    the oversight responsibilities of the DDESB for explosives safety programs. We
    evaluated the DDESB policies, procedures, regulations, organizational structures,
    and command relationships for munitions and explosives safety. We also
    reviewed the management control program for the DDESB as it related to the
    overall objective. See Appendix A for a discussion of the scope and methodology
    and the review of the management control program.




                                        3
            Oversight by the DoD Explosives
            Safety Board
            The DDESB did not adequately oversee the DoD Explosives Safety
            Program. Specifically, the DDESB:

                •   limited the scope of its responsibilities;

                •   did not keep fully informed on explosives safety problems within
                    the DoD Components; and

                •   did not regularly advise or report explosives safety issues to the
                    Secretary of Defense, the Secretaries of the Military Departments,
                    and DoD Components.

            This occurred because:

                •   historically, DoD senior managers had not developed a strategy for
                    safety management that required a comprehensive explosives
                    safety program for DoD;

                •   the DDESB organizational structure inhibited effective program
                    oversight; and

                •   DoD guidance did not accurately reflect the authority necessary to
                    execute the oversight functions and responsibilities for explosives
                    safety.

            As a result, DoD had not evaluated the overall performance of the
            explosives safety program. In addition, explosives safety problems,
            weaknesses, and lessons learned were not identified for determining
            high-risk issues and best practices. Furthermore, DoD cannot ensure the
            continuous program improvement and risk mitigation necessary for
            effective management of explosives safety.


Explosives Safety Standards
     The standards for DoD explosives safety are established as minimum
     requirements that identify appropriate and acceptable risk for explosives mishaps.
     Waivers for those standards are granted in both peacetime and wartime when the
     need to accomplish a mission is compelling and added risks are specifically
     deemed acceptable. However, officials that approve and accept added risks to
     their forces and infrastructure will also elevate the risk to local populations and
     the ability of the United States to forward deploy and conduct military operations
     if a disastrous mishap occurs.

     DoD policy allows for deviation from approved explosives safety criteria,
     provided proper authority within the DoD Component accepts the increased risk


                                           4
    to personnel and property. Explosives safety risks to the public are generally
    attributable to three sources: inadequate or out-of-date procedures, poorly
    maintained or poorly designed infrastructure, and unnecessary exposure.
    Exposure is defined as the amount of explosives with which the public and the
    environment may be in contact through time or quantity. That amount includes,
    but is not limited to, quantity-distance limitations, personnel protection measures,
    and knowledge of the amount and type of ammunition and explosives present.
    Waivers provide written authority for temporary deviations, normally not to
    exceed 5 years, from a mandatory requirement. An example of a waiver is a
    deviation from the required distance between a potential explosives site and an
    exposed site. Military Department officials with assigned responsibility for the
    level of risk and with the authority to control the resources for accomplishing
    corrective action are authorized to grant waivers. Exemptions to standards are
    written authority that permit long-term noncompliance with explosives safety
    standards and are granted by law, congressional action, or military officials with
    assigned responsibility for the level of risk.

    Deviations from safety standards lead to risks to human life, property, or the
    environment. Effective explosives safety management eliminates unnecessary
    risks, minimizes inherent risks, and directly contributes to operational
    effectiveness and readiness.


DDESB Structure, Mission, and Functions
    The DDESB organization structure has two main components: board membership
    and a Secretariat. The DDESB chairman presides over the board and directs the
    Secretariat.

    Board Membership. Board membership consists of a chairman and one
    representative from each of the four Services. The chairman holds a full-time
    position on the board, and the Board members have collateral 3-year assignments
    in which each member represents the Service position on explosives safety
    matters. Board members are senior military personnel (O-6 level) or civilian
    equivalent, and each member has one vote. With the exception of the chairman,
    each Board member has an alternate, who is authorized to act with plenary
    powers for the principal, when absent. The DDESB meets formally twice each
    year and when significant issues require attention.

    Secretariat Structure. The DDESB is supported by a full-time Secretariat with
    responsibility for operational and administrative functions. The Secretariat
    consists of 16 civilian and 5 military personnel, including the chairman of the
    DDESB. With the exception of the DDESB chairman, Secretariat personnel
    cannot vote.

    The Secretariat has four divisions: operations, technical programs, military
    representatives, and administrative personnel. The operations division performs
    installation surveys that assess compliance with explosives safety standards. The
    operations division also reviews site plans the Services submit for the design of
    explosives facilities. The technical programs division establishes and maintains


                                         5
    ammunition and explosives safety standards, identifies issues for consideration at
    DDESB meetings, and conducts test programs for developing explosives safety
    standards. The military division consists of four full-time military personnel that
    represent each of the four Services. The military division personnel serve as
    liaison between the DDESB and the Military Departments, advise the chairman
    on the Military Departments’ explosives safety policies and operational and
    logistical items under consideration, and assist the operations division with
    installation surveys. Military personnel assigned to the Secretariat are rotated to
    the Services approximately every 3 years.

    DDESB Mission and Functions. Briefing charts Secretariat personnel provided
    indicate that the DDESB was recognized in 1928 Federal law with responsibility
    for safety oversight of DoD explosives. However, Board members and
    Secretariat officials stated that the DDESB was primarily focused on the storage
    and siting elements of explosives safety. Secretariat officials stated that the
    primary mission of the DDESB was to establish DoD standards and advise the
    Secretary of Defense, Military Departments, Combatant Commands, and other
    DoD Components on matters concerning explosives safety. Secretariat officials
    stated that the mission was also concerned with preventing ammunition and
    explosives-related conditions that would endanger life and property both on and
    off installations.


DDESB Operations
    DDESB limited the scope of its responsibilities to primarily focus on establishing
    and maintaining explosives safety standards and on facility-siting matters.
    DDESB efforts focused on installation-level compliance with standards, and not
    on its oversight responsibility. The oversight responsibility includes keeping
    fully informed on explosives safety problems within the DoD Components and
    reporting to the Secretary of Defense and others on explosives safety issues.

    Board members and Secretariat officials stated that their principal functions were
    accomplished through the Secretariat responsibility for conducting site surveys,
    reviewing site plans, and developing explosives safety standards for board
    member review. However, DDESB surveys were generally incomplete,
    duplicative, and lacked objectivity and value. In addition, the DDESB simply
    reviewed site plans that did not deviate from explosives safety standards. The
    DDESB did not have visibility of the more challenging site plans—those that did
    not meet explosives safety standards—which the Services reviewed and
    approved.

    DDESB Surveys. Secretariat personnel stated that they try to conduct explosives
    safety surveys at all 642 DoD explosives storage sites every 5 years. Secretariat
    personnel estimated that from October 1994 through June 2002 they performed
    997 surveys. Secretariat personnel also stated that they surveyed installations
    within the continental United States every 3 years and overseas locations every
    2 years. The DDESB issued 74 survey reports from October 1994 through
    June 2002 at the 29 explosives storage sites we either visited or contacted. The
    74 survey reports identified and documented deviations between installation


                                         6
conditions and existing explosives safety standards. The survey reports included
findings, observations, lists of waivers and exemptions specific to the sites, and in
some cases, recommendations. In addition, the survey reports documented the
location and unit surveyed, the date of the survey, and the names of the survey
team members.

Secretariat personnel did not use a risk assessment methodology or trend analysis
approach to select survey sites or develop survey content. In addition, the surveys
did not assess or evaluate Service explosives safety programs and did not attempt
to identify systemic problems, weaknesses, and best practices within the area of
explosives safety. Secretariat procedures for planning and performing surveys
did not include coordinating with Service activities involved in assessing
explosives safety compliance.

         Site Selection and Survey Procedures. Secretariat officials did not
select sites for survey based on the assessed risk associated with the types and
amount of explosives maintained at explosives storage sites. In addition,
Secretariat officials did not develop a systematic, comprehensive approach for
performing surveys that would allow for an assessment of the overall explosives
safety performance at an installation. The Director, Operations stated that the
Secretariat conducted surveys at every site to ensure that all storage sites comply
with the standards. The Director also stated that he developed the 5-year survey
site visit plan based on the maximum number of sites that could be surveyed each
year given the limited DDESB funding. Two-person teams typically conducted
surveys in approximately 1 day. Secretariat personnel stated that the purpose of
DDESB surveys was to assess compliance with explosives safety standards and
not to evaluate explosives safety program performance. Secretariat personnel
also stated that they did not use a standard survey methodology or protocol for
conducting surveys because they used DoD 6055.9-STD as a guide.

        An August 16, 1989, DDESB memorandum documents procedures for
conducting on-site surveys. Procedures identified in the memorandum included
reviewing survey files, preparing letters of notification for the installations to be
surveyed, submitting travel itineraries for approval, and conducting entrance and
exit briefings with installation commanders. The procedures did not address
coordinating with Service activities responsible for performing assessments and
inspections to obtain information on work performed and findings previously
identified at the activities to be surveyed. As a result, the DDESB did not use
available information necessary to ensure that it developed and performed
value-added surveys.

         Survey Reports Were Incomplete. Survey reports documented
deviations from explosives safety standards but did not describe how or to what
extent the surveys were conducted. For example, survey reports did not provide
sufficient information on the scope of the survey effort, including the procedures
survey team members followed, whether previously documented problems were
resolved, and any issues included in the survey that did not result in a finding.
Secretariat officials stated that surveys were not intended to assess performance
of explosives safety programs and, therefore, were not comprehensive. As a
result, the survey reports could not serve as a data source for performing analyses



                                      7
for identifying systematic problems, weaknesses, and best practices of the sites
DDESB surveyed.

         Survey Findings Were Frequently Duplicative. Military Department
explosives safety personnel and DDESB board members stated that the DDESB
surveys were often repeated at the same sites, and the survey reports repeated
findings with little or no new information. A review of the 74 survey reports
DDESB issued to the 29 sites we visited indicated that 21 of the reports contained
a total of 27 repeat findings. Of the 27 repeat findings, 14 findings indicated a
need for DDESB-approved explosives safety site plans or the need for resiting
explosives facilities. For example, Ramstein Air Base, Germany, had an
explosives storage and operations facility and did not have a DDESB-approved
site plan. In its 1993, 1995, 1997, and 1999 survey reports on Ramstein Air Base,
the DDESB identified the issue as a variance of DoD 6055.9-STD. The
remaining 13 repeat findings pertained to quantity-distance violations, inadequate
protection, and lack of Service response to DDESB survey reports. An alternate
DDESB board member stated that the DDESB lack of authority was the reason
for repeating surveys at specific sites because those sites were particularly
unresponsive to survey findings. The DDESB visited the sites on an annual basis
to report repeat findings and elevate those findings to a higher level. The former
DDESB member stated that until the DDESB is given more authority, some
activities would continue to ignore survey findings.

        DDESB board members stated that DDESB surveys sometimes duplicated
Service reviews and assessments. For example, Navy personnel stated that the
scope of DDESB surveys often duplicated assessments the Naval Ordnance
Safety and Security Activity performed. In addition, Navy inspections for
explosives safety include a checklist and prescribed set of procedures to
determine the adequacy of installation explosives safety programs and compliance
with standards and Navy regulations. Navy and Marine Corps activities are also
required to conduct annual “explosives safety self audits” that follow the checklist
used for the explosives safety inspections. Army explosives safety personnel also
stated that DDESB surveys duplicated the reviews the U.S. Army Technical
Center for Explosives Safety performed. The U.S. Army Technical Center for
Explosives Safety used a comprehensive plan and checklist to conduct explosives
safety reviews and inspections at Army installations.
        Survey Objectivity and Value. Two DDESB members stated that
DDESB surveys were frequently subjective because the Secretariat limited the
survey scope to a current hot topic within the explosives safety field. Topic
examples included lightning protection and grounding wire stability. Army and
Navy explosives safety personnel indicated that personal preferences of DDESB
survey team members often dictated whether the special interest items were
included in the surveys. One Board member stated that to eliminate subjectivity
the survey process needed “defining, refining, and quantifying.” The Board
member also stated that survey reports were sometimes confusing and ambiguous.

        Army, Navy, and Air Force explosives safety personnel also questioned
the value the DDESB surveys added to their explosives safety programs.
Personnel at the U.S. Army Technical Center for Explosives Safety stated that the
DDESB surveys were subjective and inconsistent because the DDESB did not


                                     8
follow a standard approach for conducting the surveys. Weapons safety
personnel at Aviano Air Base, Italy, also questioned the value the DDESB
surveys added because the DDESB did not use a standardized approach for
performing surveys. Army and Navy explosives safety personnel stated that
DDESB surveys were too limited in scope and were often conducted in less than
1 day. Edwards Air Force Base, California, personnel stated that DDESB surveys
should be performed more frequently and comprehensively. Edwards Air Force
Base personnel added that visits of the DDESB survey team were considered a
low priority because the team only visited for a short time and was not seen again
for a few years. In addition, Army personnel stated that DDESB surveys reflected
varying interpretations of the standards based on the Service perspective of the
standards for survey team members.

         Army explosives safety personnel at Fort Hood, Texas, took issue with the
value a 1997 DDESB survey provided regarding an ammunition supply point for
a hillside magazine. Army explosives safety personnel stated that applicable
explosives safety criteria were based on flat terrain and did not address the unique
aspects of a hillside magazine configuration. U.S. Army Technical Center for
Explosives Safety personnel performed extensive research, determined that the
hillside magazine was more functionally similar to an underground magazine than
an earth-covered magazine, and submitted a site plan to the DDESB for the
hillside ammunition supply point. The DDESB returned the site plan submission
in May 1999 and, according to U.S. Army Technical Center for Explosives Safety
personnel, did not provide a viable solution to the problem. The survey report
recommended that Fort Hood personnel gather additional hillside topographical
data. Site plan approval for the Fort Hood ammunition supply point did not meet
explosives safety standards as of November 2002.

        Survey Recommendations for Corrective Action. DoD
Directive 6055.9 requires that the Secretaries of the Military Departments correct
DDESB survey findings and provide the DDESB with information and support
necessary to discharge its responsibilities and functions. Army and Navy
regulations require installations within the continental United States to respond
within 90 days to DDESB survey recommendations and require overseas
activities to respond within 120 days. Air Force regulations do not require
responses within a specific period of time.
         Secretariat officials stated that the quality, timeliness, and responsiveness
of Services comments to DDESB surveys were generally poor. Secretariat
officials stated they issued letters to the Services when responses were not
received within required time frames. A January 25, 2002, overdue response
letter from the DDESB to the Army indicated that the Army failed to respond to
142 survey reports issued between 1999 through 2001. A similar letter to the Air
Force on the same date indicated that the Air Force failed to respond to 39 survey
reports issued between 1998 through 2001. Corrective actions remained open
until a response was received from the Service or the next survey was conducted
at the activity. As a result, Secretariat officials were unaware of the status of
corrective actions for activities that failed to respond to survey report
recommendations.




                                      9
Site Plan Review for Compliance With Explosives Safety Standards. The
DDESB Secretariat reviewed and approved site plans for construction and
modification of explosives storage facilities that would ensure compliance with
DoD explosives safety standards. The Military Departments developed and
reviewed site plans for technical compliance before approving and submitting the
plans to the DDESB. The Naval Ordnance Safety and Security Activity, the U.S.
Army Technical Center for Explosives Safety, and the Air Force Safety Center
were responsible for approving and submitting site plans to the DDESB. The
DDESB Secretariat was responsible for site plan review and approval. However,
the Secretariat did not review site plan submissions that included deviations from
the DoD explosives safety standards. The Services were responsible for issuing
and approving waivers and exemptions to the standards for site plans not in full
compliance. Secretariat personnel stated that they devoted approximately
one-third of their time to explosives site plan review and approval. Secretariat
personnel stated that approximately 50 percent of all site plans received required
major revision to comply with the standards.

Air Force explosives safety personnel challenged the logic of the explosives site
plan approval process, stating that the Air Force Safety Center had final approval,
with exceptions on Air Force site plans, and the DDESB, a higher-level authority,
had final approval without exceptions on site plans. The Air Force explosives
safety personnel questioned the DDESB lack of scrutiny and review of the more
challenging explosives site plans—those that did not meet standards—and stated
that site plans without exceptions did not need DDESB-level review. Air Force
explosives safety personnel proposed that approval authority for exception-free
site plans should be delegated to the Air Force major commands, and the Office
of the Secretary of the Air Force should approve site plans with exceptions. The
Air Force personnel stated that the proposal to lower approval authority for
exception-free site plans would reduce the exception-free site plan approval
process from 12 to 24 months to 6 to 12 months. The Air Force proposal required
any site plan go to the DDESB for information purposes.

The DDESB did not effectively execute its oversight responsibilities in the site
plan approval process for explosives safety because DDESB personnel were not
involved in reviewing site plans that deviated from explosives safety criteria. As
an oversight organization, the DDESB should be aware of the risks the Services
accept and should be involved in helping the Services mitigate the risks whenever
possible. The DDESB needs to focus more on the Services’ overall explosives
safety programs and how to improve and evaluate Service programs and less on
site plans that the Services have reviewed and approved in accordance with the
standards.

DDESB Reporting Requirement. DoD Directive 6055.9 requires that the
DDESB chairman annually report to the Secretary of Defense and the Secretaries
of the Military Departments. However, the DDESB had not submitted an annual
report since 1995. DDESB personnel stated that they discontinued the annual
report to the Office of the Secretary of Defense because the Military Departments
indicated that the annual report was redundant and did not provide value.
DDESB officials also stated that development of the report required significant
resources and that they did not receive feedback from the Office of the Secretary



                                    10
           of Defense. As a result, the DDESB did not prepare a program performance
           report for explosives safety.


Explosives Safety Management Program Planning and
  Oversight Deficiencies
           The Office of the Under Secretary of Defense for Acquisition, Technology, and
           Logistics had not developed a safety management strategy that required a
           comprehensive DoD explosives safety program. In addition, the DDESB
           organizational structure constrained the objectivity and independence of the
           members and inhibited effective oversight of the program.
           Safety Management Strategy. Historically, the Office of the Under Secretary of
           Defense for Acquisition, Technology, and Logistics2 had not developed a safety
           management strategy or required that the DDESB outline and clarify explosives
           safety goals, objectives, and program expectations. As a result, the DDESB did
           not have clearly defined goals or objectives nor did they ensure that the functional
           operations were sufficient for accomplishing its basic mission of explosives safety
           program oversight. A comprehensive explosives safety program that outlines
           goals, objectives, and overall program expectations should enable the DDESB to
           focus its operations on oversight initiatives. DDESB personnel acknowledged
           that DoD had not established a comprehensive explosives safety program and had
           not identified essential elements for implementation of the program for DoD
           Components. DDESB personnel also recognized the lack of established metrics
           for monitoring performance.

           DDESB Objectivity, Independence, and Authority. The DDESB
           organizational structure inhibited effective program oversight. In addition, the
           DDESB was an established, executive-level board with oversight responsibilities
           for the explosives safety program. However, DoD Directive 6055.9 did not
           accurately reflect the authority necessary for executing explosives safety
           oversight functions and responsibilities.

                   Objectivity and Independence. DDESB board members represented the
           Services’ perspective through their voting power on explosives safety standards.
           Secretariat personnel stated that Board members had reduced the requirements
           documented in DoD 6055.9-STD because of the costs associated with
           implementing new or revised standards. Secretariat personnel also stated that
           Board members were concerned with costs to the Services of proposed changes
           instead of being focused on safety measures that were in the best interest of the
           Department. Conversely, Board members stated that when Secretariat personnel
           recommended changes to the standards, Secretariat personnel did not take into
           consideration costs, the existing level of explosives safety protection, and the lack
2
    In its FY 2000 Annual Report to Congress on the Defense Environmental Quality Program, the Office of
    the Deputy Under Secretary of Defense (Installations and Environment) stated that the Munitions Action
    Plan, issued in November 2001, identified actions that would help maintain combat readiness through
    improved environmental stewardship and enhanced explosives safety compliance. The report did not
    specifically address explosives safety management.



                                                     11
    of major disasters related to explosives safety. Board members also stated that
    sufficient consideration was not given to the costs associated with proposed
    changes to the standards because the DDESB was not responsible for funding the
    approved changes.

            In 1997, the DDESB Secretariat proposed that the DDESB board members
    consider identifying specific elements of an effective explosives safety program
    for incorporation into the DoD Standards. According to a member of the
    Secretariat, the proposal was not considered for action because the Board
    members considered the individual Military Department explosives safety
    programs to be adequate. However, the DDESB had not assessed explosives
    safety programs of the Services and had no data on whether program performance
    was adequate. The Board members did not demonstrate the independence and
    objectivity necessary to make decisions from a program oversight perspective and
    appeared to vote on an important issue without independent, substantive data. As
    a result, Secretariat personnel failed in their attempt to correct a program
    weakness because of the voting authority delegated to the military representatives
    on the board.

            DDESB Authority. DoD Directive 6055.9 does not accurately reflect the
    authority necessary to execute explosives safety oversight functions and
    responsibilities. Specifically, the Directive does not require overall program
    performance assessments; periodic review of Services’ explosives safety
    programs; or standardizing explosives safety program elements to promote best
    business practices when appropriate. In addition, the Directive constrains
    oversight initiatives by dictating the organizational structure of the DDESB.


Lack of Explosives Safety Program Evaluation
    The Military Departments were responsible for establishing and maintaining
    aggressive explosives safety programs, but the DDESB did not evaluate or assess
    the effectiveness of program performance for each Service. In addition, the
    DDESB had not implemented a corporate data management system necessary for
    capturing, analyzing, and reporting explosives safety information. Also, some
    Board members were unaware of the DDESB oversight mission. As a result, the
    DDESB did not have the information necessary for keeping fully informed on
    explosives safety problems, weaknesses, and trends within the DoD Components
    or advising and reporting to the Secretary of Defense and DoD Components on
    the effectiveness of explosives safety policy and standards implementation, as
    DoD Directive 6055.9 requires. Furthermore, the DDESB cannot meet its
    mission to provide effective program oversight without the policies that define an
    effective program and a performance measurement system for evaluating program
    performance (that is, success at achieving documented goals and objectives).

    DoD Explosives Safety Program Evaluation. The DoD had not established a
    system for measuring the performance of the DoD explosives safety program.
    The DDESB had not, therefore, assessed overall effectiveness of the explosives
    safety program. An effective evaluation system is necessary for identifying and
    correcting program deficiencies as well as continuously improving performance


                                        12
    of the program. Although each Service had instituted an explosives safety
    program and the same explosives safety standards applied to all, DoD did not
    have a uniform set of measurements for evaluating the effectiveness of the
    programs. For example, DoD 6055.9-STD allows each Service to establish and
    maintain its own waiver and exemption program. Each Service established its
    own definitions and methodology for managing waivers and exemptions to the
    standards. In addition, interpretations of explosives safety standards often varied
    with Service member perspective. Secretariat officials stated that the lack of
    standardization among the Services makes analysis and comparison of risks
    difficult.

    Corporate Data Management System. The DDESB had not implemented a
    corporate data management system necessary for capturing, analyzing, and
    reporting explosives safety information. The Services had responsibility for their
    explosives safety programs and performed different types of assessments and
    inspections of explosives safety for their activities. The DDESB had no system
    for reviewing Service explosives safety data necessary for program evaluation.
    For example, the Defense Ammunition Center, an Army-managed ammunition
    supply activity, maintained and managed a system for collecting and analyzing
    explosives safety mishap data. The Army, Navy, and Air Force submitted mishap
    data to the Defense Ammunition Center, but Defense Ammunition Center
    personnel stated that the data were incomplete and that only Army data were
    reviewed and analyzed. As a result, the DDESB could not capture or analyze
    mishap data necessary to effectively evaluate overall explosives safety program
    performance.

    Board Members Unaware of Oversight Responsibility. Two Board members
    stated that they were not aware of DDESB program oversight responsibilities and,
    therefore, had not developed oversight initiatives. The Board members also
    stated that they believed the primary responsibility of the DDESB was developing
    explosives safety standards. One Board member stated that the DDESB members
    could not perform the functions required of the oversight mission through
    collateral duty assignments. He also stated that both of his duty assignments were
    in the area of explosives safety, but his DDESB responsibilities were generally
    limited to attending approximately two meetings each year.


Conclusions
    The DDESB did not adequately oversee the DoD Explosives Safety Program.
    The DDESB limited the scope of its responsibilities and did not:

       •   keep fully informed on explosives safety problems within the DoD
           Components; or

       •   regularly advise or report to the Secretary of Defense and the Secretaries
           of the Military Departments on explosives safety issues.

    The DDESB did not keep fully informed on explosives safety problems nor did it
    develop and maintain the knowledge that would provide an overall assessment of


                                         13
    the performance of the DoD Explosives Safety Program. Information Secretariat
    officials obtained during explosives safety surveys was not sufficient for
    evaluating the program elements of explosives safety, identifying trends, or
    assessing explosives safety risks. Additionally, the DDESB did not request


    explosives safety data from the Services or access available data maintained by
    others. Furthermore, the DDESB had not attempted to assess or evaluate the
    Services’ explosives safety programs.

    DoD did not have a strategy for addressing explosives safety and had not
    implemented a comprehensive explosives safety program. DDESB functions and
    expertise were primarily focused on establishing and maintaining standards for
    explosives safety and on facility-siting matters. Emerging missions, acquisition
    reform, interoperability, and life-cycle management are considerations that strain
    and challenge the management systems for munitions and explosives safety.
    DDESB operations should focus less on installation-level compliance with
    standards and more on the challenging issues facing managers of explosives
    safety programs today. DDESB officials acknowledged several challenging
    issues that require DoD-level attention and coordination, but the historical focus
    of DDESB personnel on surveys and site plan reviews divert critical resources
    from important oversight issues. Inadequate program planning and organizational
    deficiencies within the DDESB structure have prevented the DDESB from
    establishing effective, proactive oversight. Collateral-duty, rotational
    assignments from the Military Departments do not invest the DDESB with the
    independence and objectivity necessary to execute agency-level oversight
    decisions. As a result, the DDESB has not established the credibility and
    leadership typically attributed to an executive-level oversight organization. Many
    DDESB Secretariat personnel have extensive experience and expertise, but
    program plans, goals, and objectives need to be identified to properly structure the
    DDESB for effective oversight of the explosives safety program. The DDESB
    must lead the DoD in explosives safety and ensure that efforts to minimize risks
    are identified and implemented. Proactive oversight of the program will identify
    weaknesses, inform policy makers, and, therefore, help to mitigate any risk
    inherent to explosives safety operations. Until DDESB operations are aligned
    with its oversight mission, the DDESB will be unable to identify and elevate the
    most essential, high-risk explosives safety issues to decision makers.


Recommendations, Management Comments, and Audit
  Response
    We recommend the Deputy Under Secretary of Defense (Installations and
    Environment):

           1. Revise DoD Directive 6055.9, “DoD Explosives Safety Board
    (DDESB) and DoD Component Explosives Safety Responsibilities,”
    July 29, 1996, to clearly establish DoD Explosives Safety Board roles and
    responsibilities for program oversight, policy development and
    implementation, and other necessary explosives safety program management


                                        14
functions and responsibilities. The revision should require that the DoD
Explosives Safety Board:

             a. Provide oversight of deviations from explosives safety
standards that will ensure any added risk is understood and acceptable by
the appropriate authorities.

               b. Establish systematic and comprehensive procedures in
accordance with established performance measures for evaluating the
effectiveness of the Services’ explosives safety programs.

               c. Establish or identify and implement a corporate data
management system that captures, analyzes, and reports explosives safety
information related to key explosives safety risk issues, explosives safety
deficiencies, and corrective actions from DoD Components.

             d. Perform periodic assessments of Service explosives safety
programs that identify program strengths and weaknesses as they relate to
program goals and objectives.

              e. Report explosives safety issues and continuous program
improvement efforts annually, at a minimum, to the Secretary of Defense
and Secretaries of the Military Departments.

        Management Comments. The Deputy Under Secretary of Defense
(Installations and Environment) concurred and plans to revise DoD
Directive 6055.9 to accurately reflect the oversight mission, functions, and
responsibilities of the DoD Explosives Safety Board. The Directive is estimated
to be completed in the second quarter of fiscal year 2004.

     2. Develop a safety management strategy that requires a
comprehensive DoD explosives safety program that will:

              a. Establish formal plans and policies.

               b. Outline and clarify program goals and objectives for
explosives safety.

             c. Identify essential elements for DoD Component
implementation of explosives safety programs.

            d. Include performance metrics that will evaluate
accomplishment of specific goals and objectives.

        Management Comments. The Deputy Under Secretary of Defense
(Installations and Environment) concurred and stated that explosives safety
experts from the Services are developing a DoD Explosives Safety Board strategy
that will include revised mission and vision statements as well as a 7-year plan.
This strategy is estimated to be completed in the second quarter of fiscal
year 2004.



                                   15
       3. Restructure the DoD Explosives Safety Board to:

              a. Ensure independent, objective, and full-time membership
with executive-level oversight responsibilities.

             b. Address Recommendations 1. and 2. above and
shortcomings associated with the prevailing functions and activities of the
DoD Explosives Safety Board.

        Management Comments. The Deputy Under Secretary of Defense
(Installations and Environment) concurred with the recommendation, stating that
a policy memorandum is currently being staffed.

        Audit Response. The Office of the Deputy Under Secretary of Defense
(Installations and Environment) comments were responsive. We confirmed with
the Office of the Deputy Under Secretary of Defense (Installations and
Environment) that the policy memorandum addresses restructuring the DoD
Explosives Safety Board.




                                   16
Appendix A. Scope and Methodology
   We reviewed documentation dated December 1927 through September 2002. To
   accomplish the evaluation objective, we:

      •   reviewed DoD and Military Department policies, procedures, regulations,
          organizational structures, and command relationships for munitions and
          explosives safety;

      •   interviewed DDESB members to determine their program oversight
          responsibilities as well as independence;

      •   reviewed 74 DDESB survey reports for the 29 sites we visited or
          contacted to evaluate survey completeness, frequency, objectivity, and
          value;

      •   interviewed personnel from the Air Force Safety Center, the U.S. Army
          Technical Center for Explosives Safety, and the Naval Ordnance Safety
          and Security Activity that maintain documentation for explosives safety;
          and

      •   interviewed explosives safety personnel from various Service installations
          and major commands to identify concerns with the DDESB.

   We performed this evaluation from February 2002 through February 2003
   according to standards implemented by the Inspector General of the Department
   of Defense. We did not review explosives safety management issues for DoD
   agencies. We also did not review physical security, training exercises, and
   mishap response. Further, the scope of this evaluation did not include chemical
   agents, nuclear weapons, or munitions maintained on ships.

   Use of Computer-Processed Data. To achieve the evaluation objectives, we
   relied on computer-processed data contained in the DDESB survey database.
   Although we did not perform a formal reliability assessment of the
   computer-processed data, we determined that the number and dates of DDESB
   surveys did not always match the hard copy documentation maintained by the
   DDESB. However, we did not find errors that would preclude the use of the
   computer-processed data to meet the evaluation objectives or that would change
   the conclusions in this report.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD high-risk area identified as, “Overcome support infrastructure
   inefficiencies.”




                                      17
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DDESB management controls for performing oversight for
    management of the DoD Explosives Safety Program. We also reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of the Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40. Controls for the
    oversight of the explosives safety program did not ensure that the DoD
    Explosives Safety Program was adequate and efficient. Implementation of the
    recommendations for developing a strategic plan that outlines goals and
    objectives for explosives safety programs, providing annual performance reports
    for explosives safety programs, and establishing procedures for evaluating the
    effectiveness of the Service explosives safety programs in accordance with
    established performance measures should correct the weaknesses. A copy of the
    report will be sent to the senior official responsible for management controls in
    the Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics and the DDESB.

    Adequacy of Management’s Self-Evaluation. DDESB conducted
    self-evaluations of office and administrative procedures rather than program
    areas. As a result, when DDESB performed its self-evaluation, the review was
    limited to internal management of accounting and administrative controls and did
    not address the operational procedures for mission oversight requirements for
    explosives safety.


Prior Coverage
    During the last 5 years, no reports addressing the DoD Explosives Safety Program
    were issued.




                                        18
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
  Chairman, Department of Defense Explosives Safety Board
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Controller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Office of the Deputy Under Secretary of Defense
(Installations and Environment) Comments




                       21
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
William C. Gallagher
Deborah L. Carros
George P. Marquardt
Kevin T. O’Connor
Jacqueline J. Vos
Brian S. Benner
Robert B. France
Rachel E. Perretta
Melissa H. Boyd
Kimberly M. Haines
Kelly B. Klakamp
Sharon L. Carvalho
